om
I

C@OCKLE

a E-Mail Address:
Legal Bricfs contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214

Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850
No. 20-753
CONFEDERATED TRIBES AND
BANDS OF THE YAKAMA NATION,
Petitioner,
Vv.
YAKIMA COUNTY, WASHINGTON, et al.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the RESPONSE TO PETITION
FOR WRIT OF CERTIORARI in the above entitled case complies with the typeface requirement
of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text
and 10 point for the footnotes, and this brief contains 3284 words, excluding the parts that are

exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 26th day of February, 2021.
lam duly authorized under the laws of the State of Nebraska to administer oaths.

‘ My Comm. Exp. September 5, 2023

 

GENERAL NOTARY-State of Nebraska

Notary Public Affiant 40601
